I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

C E N T E N O, R O N A L D
P etiti o n er
vs.

N o:

2 0- 8 1 8 4

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
J u n e 0 3, 2 0 2 1
c c:
J A M E S P A T RI C K M C L O U G H LI N
M O O R E & V A N A L L E N, P L L C
100 N O R T H T R Y O N S T R E E T
S UI T E 4 7 0 0
C H A R L O T T E, N C 2 8 2 0 2

